U.S. Department of Labor            Office of Inspector General
                                    Washington, D.C. 20210




        JUl 26 2013

       Patricia Shannon
       Chief Financial Officer
       AARP Foundation
       601 E Street NW
       Washington, DC 20049

       Dear Ms. Shannon:

       The purpose of this final report (Report Number 24-13-01 0-03-360) is to formally
       advise you of the results of a Quality Control Review (QCR) the U.S. Department
       of Labor (DOL), Office of Inspector General conducted of the following audit
       performed by Grant Thornton, LLP under the Federal Single Audit Act (Act) and
       Office of Management and Budget Circular A-133 (A-133):

       Single Audit of AARP Foundation for the Year Ended December 31, 2012

       The objectives of the QCR were to determine whether: (1) the audit was
       conducted in accordance with applicable standards and met the single audit
       requirements, (2) issues were identified that may require management's
       attention, and (3) any follow-up work is needed.

       The major program included in our review was as follows:

        DOL Major Program Reviewed
                                                  Catalog of Federal
        Major Program                           Domestic Assistance        DOL Funds
                                                            Number          Expended
        Senior Community Service
        Employment Program                                        17.235   $72,568,000

       Based on our review of the audit documentation related to the program above,
       we determined that the audit work performed was acceptable and met the
       requirements of the Act and A-133. There are no issues that require
       management's attention and no follow-up work is needed.




                           Working for America :s-           Wor~force
If you have any questions concerning the         of the      please contact
Melvin Reid, Director,      of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




          Inspector General 

 for Audit 


cc: Frank Kurre, Partner
    Grant Thornton,

   Kevin Brumback, Audit Liaison 

   Employment and Training Administration 


   Stephen Daniels, Director 

   Division of Policy, Review, and Resolution 

   Employment and Training Administration 

